<html>
<title> - MARKUP ON H. RES. 630: IMPLEMENTING MANDATORY ANTI-HARASSMENT, ANTI- DISCRIMINATION TRAINING GUIDELINES</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]




                  MARKUP ON H. RES. 630: IMPLEMENTING
   MANDATORY ANTI-HARASSMENT, ANTI-DISCRIMINATION TRAINING GUIDELINES

=======================================================================

                                HEARING

                               BEFORE THE

                           COMMITTEE ON HOUSE
                             ADMINISTRATION
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           DECEMBER 19, 2017

                               __________

      Printed for the use of the Committee on House Administration




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





                       Available on the Internet:
   http://www.gpoaccess.gov/congress/house/administration/index.html 
   
                                    ______
   		 
                        U.S. GOVERNMENT PUBLISHING OFFICE 
   		 
 32-363                      WASHINGTON : 2018                 
     
   
   
   
   
   
   
   
   
   
   
   
   
   
   
   
   
                   Committee on House Administration

                  GREGG HARPER, Mississippi, Chairman
RODNEY DAVIS, Illinois, Vice         ROBERT A. BRADY, Pennsylvania,
    Chairman                           Ranking Member
BARBARA COMSTOCK, Virginia           ZOE LOFGREN, California
MARK WALKER, North Carolina          JAMIE RASKIN, Maryland
ADRIAN SMITH, Nebraska
BARRY LOUDERMILK, Georgia

























 
  MARKUP ON H. RES. 630: IMPLEMENTING MANDATORY ANTI-HARASSMENT, ANTI-
                   DISCRIMINATION TRAINING GUIDELINES

                              ----------                              


                       TUESDAY, DECEMBER 19, 2017

                          House of Representatives,
                         Committee on House Administration,
                                                    Washington, DC.
    The Committee met, pursuant to call, at 12:28 p.m., in Room 
1310, Longworth House Office Building, Hon. Gregg Harper 
[Chairman of the Committee] presiding.
    Present: Representatives Harper, Davis, Comstock, Walker, 
Smith, Loudermilk, Brady, and Raskin.
    Staff Present: Sean Moran, Staff Director; Kim Betz, Deputy 
Staff Director/Policy and Oversight; Katie Patru, Deputy Staff 
Director/Outreach and Communications; Cole Felder, Deputy 
General Counsel; Dan Jarrell, Legislative Clerk; Erin 
McCracken, Communications Director; Jamie Fleet, Minority Staff 
Director; Khalil Abboud, Minority Deputy Staff Director; Eddie 
Flaherty, Minority Chief Clerk; and Meredith Connor, Minority 
Professional Staff.
    The Chairman. I call to order the Committee on House 
Administration for today's Committee markup. A quorum is 
present, so we may proceed.
    The meeting record will remain open for 5 legislative days 
so Members may submit any materials they wish to be included 
therein.
    We are here today to formally approve a House resolution 
issuing regulations requiring Members, officers, and employees, 
including interns, fellows, and detailees, of the House of 
Representatives to complete a training program on workforce 
rights and responsibilities, including anti-discrimination and 
anti-harassment training, during each congressional session.
    This resolution will also serve to issue regulations 
requiring each House employing office post a statement of 
rights and protections provided to House employees under the 
Congressional Accountability Act of 1995.
    Let me first say thanks to Speaker Paul Ryan for his 
attention and commitment to this issue. I would also like to 
thank Representative Barbara Comstock, who is a member of this 
committee, and Representative Speier for their work on this 
resolution and this issue.
    Finally, I want to thank the Ranking Member, Mr. Brady, for 
his commitment to work on this issue in a bipartisan--in a 
strongly bipartisan way.
    I also would like to thank Bradley Byrne for his work in 
serving as an ex officio member on this committee and also 
Susan Brooks, Chairman of Ethics. All of us, working together, 
are prepared to move forward with this.
    And as I have said throughout this Committee's 
comprehensive review, there is simply no place for sexual 
harassment in our society and especially in Congress. One case 
of sexual harassment is one case too many.
    I believe, as Members of Congress, we must hold ourselves 
to a higher standard, a standard that demonstrates that we are 
worthy of the trust placed in us by our constituents and the 
American people. No one should ever fear physical or 
psychological harm in any workplace, and we must ensure that 
the appropriate standards and rules apply to the congressional 
workplace to promote a safe and productive environment.
    There is really no place like the House of Representatives. 
It is a special place, and we want it to be such for anyone who 
works here. And the first step to ensuring a safe congressional 
workplace is requiring mandatory training and education for all 
Members, officers, employees, including interns, fellows, and 
detailees, of the House of Representatives, as well as the 
posting of rights and protections. H. Res. 630, these 
regulations that we are approving today, will accomplish that 
goal.
    I would now like to recognize the Ranking Member, Mr. 
Brady, for the purpose of providing an opening statement if he 
wishes.
    Mr. Brady. Thank you, Mr. Chairman.
    Mr. Chairman, I am pleased to support the regulations 
before the committee. As I have said before, training is an 
important step, but it is just a first step. There is more to 
do. I know our staff is working hard on bipartisan legislation 
to change the Congressional Accountability Act.
    Of course, none of these discussions would be possible if 
it wasn't for the leadership of my colleague from California, 
Jackie Speier, who has been talking about these changes for 
years.
    And this truly has been a bipartisan effort. I know we are 
working with Representative Byrne from Alabama in developing 
the legislation, and I thank him as well.
    I hope we can consider the bipartisan proposal in early 
2018 so that we can continue to make progress on changing the 
resolution process and the culture of our congressional 
workplace.
    Mr. Chairman, thank you again, and I yield back the balance 
of my time.
    The Chairman. Thank you, Mr. Brady.
    The gentleman yields back.
    Any other Member wish to be recognized for the purposes of 
an opening statement?
    I now recognize the gentleman from Maryland.
    Mr. Raskin. Mr. Chairman, thank you very much, and, Mr. 
Brady, thank you, also, for your leadership and for giving me 
this opportunity to speak as we adopt regulations to require 
annual anti-sexual-harassment and -discrimination training in 
Congress for both Members and staff.
    As the representatives of the people, we have a unique 
obligation to lead by establishing a culture of zero tolerance 
for this egregious form of discrimination. Although the Speech 
or Debate Clause provides Members with broad immunity for 
legislative acts under the Constitution, it can never be 
interpreted as a license to harass or discriminate against our 
employees. We are not above the law, and it is important for 
Members and employees alike to understand our individual rights 
and responsibilities for the promotion of a healthy workplace 
environment.
    I am pleased that the regulations include the advice of 
outside experts, who have highlighted the importance of in-
person, customized training, with specific workplace examples, 
to better foster a culture that rejects sexual harassment and 
discrimination.
    Though I can understand that certain district offices may 
have difficulty obtaining in-person training for their 
employees in a timely fashion, necessitating a limited 
exemption for employees whose duty station is not in D.C., it 
is my hope that the vast majority of Members will adhere to the 
spirit of these new requirements and seek out in-person, 
interactive training for all employees, regardless of whether 
they work for us in Washington or in our district offices.
    This is an important start, but mandating annual sexual 
harassment training is not sufficient. We must continue to 
examine and reform the dispute resolution processes and ensure 
that we build a system that promotes accountability, supports 
victims, and does not exacerbate existing power disparities 
among Members, supervisors, and staff.
    I am eager to continue working with my colleagues on the 
Committee, as well as Representative Speier, whose ME TOO 
Congress Act has offered a perfect starting point for crafting 
more important comprehensive reform legislation. I am confident 
that we can continue to work together in a continuing 
bipartisan way.
    Mr. Chairman, I thank you for your leadership and hope that 
we will indeed create model rules for the best workplaces in 
America. Thank you.
    The Chairman. The gentleman yields back.
    The Chair will now recognize the gentlelady from Virginia, 
Mrs. Comstock, for the purpose of an opening statement.
    Mrs. Comstock. Thank you, Mr. Chairman.
    I just wanted to thank you for the swiftness with which the 
Committee has worked on these guidelines, and the staff and all 
the work they have put into this. And having the climate survey 
included here also I think is important, because it is 
something we have talked about in a lot of the hearings that 
will help us assess the best way to do our training going 
forward.
    So I think it is important that we understand that this 
process will be adaptive and will be able to incorporate all 
kinds of good ideas that we get going forward. But I appreciate 
that we are putting this in place quickly now. And thank you.
    The Chairman. The gentlelady yields back.
    I now call up and lay before the committee the resolution 
issuing regulations pursuant to H. Res. 630.
    Without objection, the first reading of the resolution is 
dispensed with, and the resolution is considered read and open 
for amendment at any point.
    [The resolution follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Is there any debate?
    Are there any Members who want to offer an amendment to the 
resolution?
    If not, I move the Committee to adopt the resolution. The 
question is on the motion.
    All those in favor, signify by saying aye.
    Opposed, say nay.
    In the opinion of the Chair, the ayes have it, and the 
motion is agreed to.
    Without objection, the motion to reconsider is laid upon 
the table.
    For all the matters considered here today, I would ask 
unanimous consent that the staff be authorized to make 
technical and conforming changes if necessary.
    Without objection, so ordered.
    Without objection, the markup is adjourned.
    [Whereupon, at 12:36 p.m., the Committee was adjourned.]

                                  [all]


</pre></body></html>
